U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 31, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Gary S. Williky v. Securities and Exchange Commission,
S.Ct. No. 19-997

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on February 6, 2020. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government's response is now due on April 1, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 1, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0997
WILLIKY, GARY S.
SEC

BRYAN C. SHARTLE
SESSIONS,FISHMAN,NATHAN & ISRAEL,
L.L.C.
3850 NORTH CAUSEWAY BLVD.
SUITE 200
METAIRIE, LA 70002-7227
504-828-3700
BSHARTLE@SESSIONS.LEGAL

